CERTIFICATE OF SERVICE
NO. 19-430
Athena Diagnostics, Inc., et al.
Petitioner(s)
v.
Mayo Collaborative Services, LLC, dba Mayo Medical Laboratories, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
HONORABLE PAUL R. MICHEL (RET.) AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S), by
mailing three (3) true and correct copies of the same by USPS Priority mail, postage prepaid for
delivery to the following addresses:
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
(202) 663-6800
seth.waxman@wilmerhale.com
Counsel for Athena Diagnostics, Inc., et al.

Jonathan E. Singer
Fish & Richardson, P.C., P.A.
12390 El Camino Real
San Diego, CA 92130
(858) 678-5070
singer@fr.com
Counsel for Mayo Collaborative Services, LLC, et al.

Lucas DeDeus

November 7, 2019
SCP Tracking: Dowd-1717 Pennsylvania Ave., NW-Cover Cream

